LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 21, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE NO. 20-843:

NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC., ET AL. V.
K EVIN P. B RUEN , IN H IS O FFICIAL C APACITY AS
SUPERINTENDENT OF NEW YORK STATE POLICE, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae the Violence
Policy Center on September 21, 2021, I caused service to be made pursuant to Rule 29
on the following counsel for the Petitioners and Respondents:
PETITIONERS:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com

RESPONDENTS:
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.underwood@ag.ny.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
the Violence Policy Center in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 21st day of September 2021.

